   SIGAR                                  Special Inspector General for
                                           Afghanistan Reconstruction




                                                SIGAR-14-10 Inspection Report




          Walayatti Medical Clinic: Facility Was Not
          Constructed According to Design Specifications
          and Has Never Been Used




                                                                 OCTOBER
                                                                 2013
SIGAR 14-10-IP/Walayatti Medical Clinic
SIGAR
                                              October 2013
                                              Walayatti Medical Clinic: Facility Was Not Constructed According
                                              to Design Specifications and Has Never Been Used

                                              SIGAR-14-10 INSPECTION REPORT
Special Inspector General for
Afghanistan Reconstruction
                                              WHAT SIGAR FOUND
                                              SIGAR’s inspection found that none of the three structures constructed for the
 WHAT SIGAR REVIEWED                          Walayatti clinic—the 11-room medical clinic, latrine, or guard house—was
                                              constructed according to the design specifications. For example, the latrine
 On February 1, 2011, Joint Task
                                              was built as one room with four stalls, instead of two separate rooms with two
 Force Kabul, within U.S. Forces-
                                              stalls each, which would have allowed for simultaneous use by both genders.
 Afghanistan, awarded a $194,572
                                              In addition, a 120-kilowatt generator and two hot water heaters were missing,
 Commander’s Emergency
                                              and critical documents were missing from the project’s construction files,
 Response Program contract to
                                              including approvals of deviations from contract specifications and
 Bonyad Watan Limited
                                              documentation of project oversight. SIGAR has previously reported on the
 Construction Company. The
                                              problem of missing Commander’s Emergency Response Program (CERP)
 contract called for a 180-day
                                              project documentation and, while some improvements have been made in
 period of performance to
                                              project accountability, missing documents for this project indicate that it is
 construct a new medical clinic
                                              still a problem.
 consisting of three structures—a
 single-story, 11-room medical                SIGAR also found that the clinic was empty and had never been used. Joint
 clinic; a guard tower; and a                 Task Force Kabul and the Afghan Ministry of Public Health (MOPH) signed an
 latrine—in the village of Walayatti          agreement for MOPH to staff and equip the clinic upon official transfer of the
 in Kabul province.                           facility to the Afghan government. However, an MOPH official told SIGAR that
                                              he was unaware of the existence of a signed agreement. Moreover, the official
 For this inspection, SIGAR
                                              said that the clinic was not included in the MOPH’s operation and
 assessed whether (1) construction
                                              maintenance plan because the U.S. government had failed to coordinate with
 was completed in accordance with
                                              MOPH’s Policy and Planning directorate and had not officially transferred the
 contract requirements and
                                              facility to the Afghan government. The project’s files contain no
 applicable construction standards
                                              documentation of the project’s transfer to the Afghan government after
 and (2) the facilities were being
                                              construction was completed.
 used as intended and sustained.
 SIGAR reviewed available contract            WHAT SIGAR RECOMMENDS
 documents to prepare for its site
                                              SIGAR recommends that the Commanding General, U.S. Forces-Afghanistan
 inspection on February 23, 2013.
                                              (1) take steps to assist the Afghan government in installing the equipment for
 SIGAR conducted its work in Kabul
                                              this facility required under the CERP contract or suitable alternative
 province, Afghanistan from
                                              equipment; and (2) determine whether Walayatti medical clinic has been
 January through September 2013,
                                              officially transferred to the Afghan MOPH and, if not, take immediate action to
 in accordance with the Quality
                                              do so; and (3) work with MOPH to take appropriate action to equip, staff, and
 Standards for Inspection and
                                              sustain the medical clinic for the Walayatti village inhabitants. In commenting
 Evaluation published by the
                                              on a draft of this report, USFOR-A generally concurred with SIGAR’s
 Council of the Inspectors General
                                              recommendations and detailed steps it took after receiving the draft report to
 on Integrity and Efficiency.
                                              implement them. USFOR-A’s comments and SIGAR’s responses to them are
                                              reproduced in appendix IV.




     For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
October 30, 2013

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Mark A. Milley
Commander, International Security Assistance Force Joint Command, and
   Deputy Commander, U.S. Forces-Afghanistan

Major General James M. Richardson
Deputy Commander, Joint Operational Corps Headquarters-Afghanistan, and
  Commander, U.S. National Support Element Command-Afghanistan


This report discusses SIGAR’s inspection of the Walayatti medical clinic in Kabul province,
Afghanistan. This report recommends that the Commanding General, U.S. Forces-Afghanistan
(USFOR-A), (1) take steps to assist the Afghan government in installing the equipment for this
facility required under the Commander’s Emergency Response Program contract or suitable
alternative equipment; (2) determine whether Walayatti medical clinic has been officially
transferred to the Afghan Ministry of Public Health (MOPH) and, if not, take immediate action
to do so; and (3) work with MOPH to take appropriate action to equip, staff, and sustain the
medical clinic for the Walayatti village inhabitants.
In commenting on a draft of this report, USFOR-A generally concurred with our
recommendations and provided information on steps it took after receiving our draft report to
implement them. For example, USFOR-A provided SIGAR information to demonstrate that its
staff inspected the clinic and met with various Afghan public health officials and local
community leaders on October 22, 2013. USFOR-A’s comments and our responses to them
are reproduced in appendix IV.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended;
the Inspector General Act of 1978, as amended; and in accordance with the Quality Standards
for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity
and Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                                                       TABLE OF CONTENTS

Background .................................................................................................................................................................. 1

Construction Was Not Completed in Accordance with Contract Requirements, and Required Documentation
Was Missing from the Project’s Files.......................................................................................................................... 2

Medical Clinic Was Completed in January 2012, but Has Never Been Used, Staffed, or Equipped ...................... 3

Conclusion.................................................................................................................................................................... 4

Recommendations ...................................................................................................................................................... 5

Agency Comments ....................................................................................................................................................... 5

Appendix I - Scope and Methodology ......................................................................................................................... 7

Appendix II - Walayatti Medical Clinic Building Plan .................................................................................................. 8

Appendix III - Memorandum of Agreement ............................................................................................................... 10

Appendix IV - Comments from United States Forces-Afghanistan .......................................................................... 11

Appendix V - Acknowledgments ................................................................................................................................ 16


FIGURES

Figure I - Main Clinic Building – Planned Layout and Actual Layout ......................................................................... 8
Figure II - Guard Room – Planned Layout and Actual Layout.................................................................................... 9

Figure III - Latrine – Planned Layout and Actual Layout ............................................................................................ 9


PHOTOS

Photo 1 - Medical Clinic in Walayatti .......................................................................................................................... 1

Photo 2 - Interior Hallway in Unused Clinic ................................................................................................................ 3


ABBREVIATIONS & ACRONYMS

             CERP                                       Commander’s Emergency Response Program

             CIDNE                                      Combined Information Data Network Exchange

             DOD                                        Department of Defense

             USFOR-A                                    U.S. Forces-Afghanistan

             MOPH                                       Ministry of Public Health




SIGAR 14-10-IP/Walayatti Medical Clinic                                                                                                                                Page i
The Department of Defense’s (DOD) Commander’s Emergency Response Program (CERP) provides funding to
unit commanders that enables them to respond quickly to urgent humanitarian relief and reconstruction needs
by carrying out programs to immediately assist the Afghan population. 1 CERP funds have been used for a
variety of projects, including public roads, schools, and medical clinics. This CERP project, a new medical clinic,
was requested by the Afghan Ministry of Public Health (MOPH).
For this inspection, we assessed whether (1) construction was completed in accordance with contract
requirements and applicable construction standards and (2) the facilities were being used as intended and
sustained.
We conducted this inspection in Kabul province, Afghanistan, from January through September 2013, in
accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by a professional
engineer in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers.
Appendix I contains a more detailed discussion of our scope and methodology.


BACKGROUND

On February 1, 2011, Joint Task Force Kabul, within U.S. Forces-Afghanistan (USFOR-A), awarded a $194,572
firm fixed-price contract (CERPCAP1D069AA) to Bonyad Watan Limited Construction Company. This CERP-
funded contract, with a 180-day period of performance, called for construction of a new medical clinic in the
village of Walayatti in Kabul province’s Bagrami District. The contract required, among other items, the building
of three structures—a single-story, 11-room medical clinic; a
guard building; and a latrine. 2 Photo 1 shows the medical        Photo 1 - Medical Clinic in Walayatti
clinic building.
The medical clinic was built to provide basic health care for
Walayatti’s 7,000 inhabitants so they would not have to
travel five miles to the nearest medical facility in the town of
Bennasar. In April 2013, we reported on the construction of
a similar medical clinic in the village of Qala-I-Muslim, which
is also located in Kabul province. 3 We reported that the
Qala-I-Muslim clinic facilities were well built and were being
used by the 4,000 villagers and sustained by the MOPH. At
the time of our inspection in November 2012, the Qala-I-
Muslim clinic had been open for 15 months and records
showed 1,565 outpatient consultations, 63 prenatal
patients, and 63 newborn deliveries.
                                                                         Source: SIGAR, February 23, 2013.




1 Money as a Weapons System-Afghanistan, the primary guidance on CERP for U.S. forces in Afghanistan, notes that CERP

funding criteria for project selection includes: (1) sustainability by the local community, an Afghan agency, or the Afghan
government; (2) benefit to the Afghan population; (3) high visibility to the local populace; (4) support for local, community,
and national member employment; and (5) ability to execute the project quickly.
2   Appendix II provides a building plan for the three structures.
3 SIGAR Inspection 13-7, Qala-I-Muslim Medical Clinic: Serving the Community Well, But Construction Quality Could Not Be

Fully Assessed, April 17, 2013.

SIGAR 14-10-IP/Walayatti Medical Clinic                                                                                 Page 1
CONSTRUCTION WAS NOT COMPLETED IN ACCORDANCE WITH CONTRACT
REQUIREMENTS, AND REQUIRED DOCUMENTATION WAS MISSING FROM THE
PROJECT’S FILES

We conducted our inspection on February 23, 2013. Although we did not observe any major construction flaws,
such as large foundation cracks or non-functioning windows and doors, none of the three structures—the
medical clinic, latrine, or guard building—had been constructed in compliance with the contract’s design
specifications. The design specifications called for an 11-room clinic with an “L” shaped hallway, a two-section,
two-room latrine for simultaneous use by both genders, and a one-room guard house. 4 Although the clinic
building had 11 rooms as specified in the contract, the entryway and certain walls and doors were installed in
different locations than the design specified. Moreover, although the contract required three hot water heaters,
we found only one had been installed. Also, the latrine was built as one large room with four stalls, instead of
two separate sections each with two stalls. 5 As a result, only one gender can use the latrines at a given time.
The guard house, which should have been constructed as a single room, consisted of two separate rooms, one
of which housed a small generator. Design plans called for a 120-kilowatt generator to provide electricity, but it
had not been provided. Instead, a portable generator, estimated by our engineer to be no more than 24-
kilowatts, was in the generator room of the guard house. However, because the clinic was not being used, the
generator was not operating during our inspection. 6 Further, the contractor had not built, as required, a well
house for the water pump. 7
A draft of our report, which we transmitted to USFOR-A on October 8, 2013, recommended that USFOR-A
compare the “as-built” construction to the contract requirements and, using a professional engineer,
determine whether the facilities are structurally sound. According to USFOR-A’s comments on the draft report,
an Air Force engineer conducted a site visit at the Walayatti clinic on October 22, 2013, and determined that
the facilities were structurally sound and ready for occupation. As such, we deleted this recommendation from
the final report.
Our review of the Combined Information Data Network Exchange (CIDNE) database—used by U.S. Central
Command to manage theater-wide operational reporting and quality assurance in Afghanistan—did not show
any design modifications or approval to support the construction changes that we observed. In addition, we
found that some documents were not contained in the CIDNE database, as required by USFOR-A standard
operating procedures. Specifically, 1 of 14 project execution documents and 2 of 7 project closure documents
required by CERP standard operating procedures were missing from the CIDNE database. This included post-
construction “as-built” drawings; evidence of project oversight, including quality assurance reports; and
documents related to Walayatti medical clinic’s official transfer to the Afghan government.
The missing project documentation raises questions about the quality of oversight USFOR-A conducted on the
project. The village elder who accompanied us on our site inspection stated that coalition forces had visited the
clinic only one time—when construction of the project had been completed. Without adequate project
monitoring and oversight there could be latent construction defects, which over time could negatively affect the
safety and integrity of the facilities. It also precludes verification that all the CERP funds were used for the
purposes for which they were appropriated and in compliance with federal law. For example, because we could
not locate oversight reports, we were not able to determine whether the contractor knew what size, length, and
amount of rebar to use in the concrete structures, as well as where to place them. These factors are essential
to ensuring that the clinic is structurally sound and safe to use.



4   See appendix II for original design plans and actual construction diagrams.
5   Based on project documentation, the latrine was constructed as an outhouse, with no plumbing or sewage connections.
6   Our review of the CIDNE database did not indicate that the generator had been purchased as part of the project.
7 The statement of work required the contractor to install a 10-horsepower submersible pump. Due to the lack of project

documentation, we were not able to determine whether the pump had been installed.

SIGAR 14-10-IP/Walayatti Medical Clinic                                                                               Page 2
Missing project documentation is not a new issue. For example, we reported in April 2013 that CERP program
officials were not complying with requirements to enter project information into the CIDNE database. 8 The
report noted that the lack of project documentation prevented us from performing a full inspection of the
facility. In their written comments on a draft of that report, USFOR-A officials stated that they periodically
sample Regional Command project files to look for incomplete information. They also noted that the Army
Budget Office samples CERP projects in CIDNE and conducts monthly training and review sessions with
USFOR-A and Regional Command CERP program managers. These are positive steps to help improve the CERP
documentation requirements for CIDNE. However, based on the number of missing documents in the file for
the Walayatti medical clinic, the problem of missing documentation persists.
A draft of this report recommended that USFOR-A ensure that project documentation related to this CERP
project complies with CERP guidance and is uploaded into the CIDNE database. In commenting on the draft,
USFOR-A reported that the project files were uploaded to CIDNE in accordance with applicable guidance. We
rechecked CIDNE after receiving USFOR-A’s comments and found that the primary documents we cited in our
draft report as missing had been uploaded. While some specific site visit documents had still not been input
into CIDNE, the personnel who would have made these site visits and documented them are likely no longer in
Afghanistan. As such, we have deleted this recommendation, as well as an appendix identifying the missing
documents, from this final report.


MEDICAL CLINIC WAS COMPLETED IN JANUARY 2012, BUT HAS NEVER BEEN
USED, STAFFED, OR EQUIPPED

Photo 2 - Interior Hallway in Unused Clinic             Our inspection on February 23, 2013, found that the 11-
                                                        room Walayatti medical clinic was empty, aside from a few
                                                        tables and chairs. The clinic had never been used since it
                                                        was completed in January 2012.
                                                        In the CIDNE database, we found a signed, but undated,
                                                        memorandum of agreement between Joint Task Force
                                                        Kabul and MOPH, which stated that MOPH would be
                                                        responsible for the operation and maintenance of the
                                                        clinic, including staffing, supplies, and routine maintenance
                                                        once construction had been completed and the clinic
                                                        transferred to the Afghan government. The memorandum is
Source: SIGAR, February 23, 2013.                       reproduced in appendix III.
                                                     However, there was no documentation in the CIDNE
database showing that the clinic had been officially transferred to the Afghan government. 9 Furthermore, while
we found records showing that all contractor payments were made on the project, no documents showed that
the contract had been formally completed and construction work approved and accepted. An MOPH official
told us in July 2013 that he was unaware of the existence of a signed memorandum of agreement between
Joint Task Force Kabul and MOPH for the Walayatti medical clinic. He further stated that the clinic was not
included in the MOPH operation and maintenance plan because the U.S. government had failed to take two
required actions: (1) coordinate with MOPH’s Policy and Planning directorate, and (2) upon completion of


8 SIGAR Inspection 13-7, Qala-I-Muslim Medical Clinic: Serving the Community Well, But Construction Quality Could Not Be

Fully Assessed, April 17, 2013.
9 CERP procedures require that a Project Clearance Memo and final Afghan Development Report for completed CERP

projects be included in the project file. A Project Clearance Memo, dated January 12, 2012, certified that all required
documentation had been included in the CIDNE database. However, the final Afghan Development Report in the CIDNE
database, dated November 20, 2012, included an incomplete closure section and was unsigned. In addition, the CIDNE
database did not contain an acceptance memorandum, signed by representatives of the local government, the U.S.
government supervising engineer, and the contractor, which is required to properly close out the contract.

SIGAR 14-10-IP/Walayatti Medical Clinic                                                                            Page 3
construction, officially transfer the facility to the Afghan government. The official stated that, until these
conditions were met, MOPH would not assume responsibility for operating and maintaining the clinic.
The memorandum of agreement in the project file noted that after construction and transfer of the facilities
were completed, U.S. forces would return periodically to check on the medical clinic’s condition. In addition,
CERP standard operating procedures required that quality assurance site visits be conducted at 60, 120, and
365 day intervals after project completion to ensure that the clinic was being sustained and achieving desired
objectives. 10 One document in the project files noted that a 120-day post-construction quality assurance visit
had been made. This document stated that there were “no issues and everything is going well.” We find this
statement puzzling when, in fact, 120 days after construction was completed, the clinic had never been
equipped or used.
A village elder who accompanied us during our site inspection stated that he had visited MOPH on several
occasions seeking staff and supplies for the clinic, but he said that MOPH had not been responsive. As a result,
the clinic remains empty and unused. Meanwhile, the village inhabitants keep a guard at the clinic to prevent
vandalism.
In commenting on a draft of this report, USFOR-A stated that MOPH has been attempting to staff and equip the
facility since 2012, when the project was completed. For example, MOPH tried to staff the clinic with personnel
from the neighboring community of Bini Hissar, which caused a conflict. The locals from Bini Hissar protested
the movement of MOPH staff from their community and the personnel transfer was cancelled. According to
USFOR-A’s comments, MOPH, the Kabul Public Health Department, local leadership, and the Ministry of
Education have now agreed that the clinic will be used as a library and administrative facility until MOPH can
staff and equip the facility as a medical clinic.


CONCLUSION

A crucial factor in the selection and the success of a CERP-funded construction project is whether the facilities
built will be used as intended by the communities they were meant to serve. By this criterion, Walayatti medical
clinic cannot be considered a success. Given that the project is (1) not being used more than 20 months after
it was completed, (2) not currently benefiting the Afghan people, (3) only highly visible because it is not being
utilized, and (4) does not have the present support of the Afghan MOPH, it is failing to meet the measures of
success implied by CERP’s funding criteria. Although we did not observe any major construction deficiencies,
there were important differences between the contract’s design specifications and the final “as-built” facilities.
In addition, documentation detailing the extent of oversight on the project while under construction was
missing.
More importantly, the facility shows no evidence of ever having been used since its completion in January
2012. At the time of our inspection, it lacked any medical equipment and had not been staffed. In fact, at the
time this draft report was submitted to USFOR-A for comment, there was inadequate evidence that the facility
had ever been properly transferred to the appropriate Afghan government unit or that the MOPH plans to
supply and staff the clinic. As a result, the almost $200,000 of U.S. taxpayer funds spent to date on the
Walayatti clinic appears to have been wasted, unless the facility is used as intended.




10   CERP Standard Operating Procedure Money as a Weapons System–Afghanistan (MAAWS-A), November 2010.

SIGAR 14-10-IP/Walayatti Medical Clinic                                                                          Page 4
RECOMMENDATIONS

To ensure that CERP construction projects are planned, designed, and completed in accordance with contract
design standards and technical specification requirements, and to help protect the U.S. government’s
investment, we recommend that the Commanding General, USFOR-A

    1. Take steps to assist the Afghan government in installing the equipment for this facility required under
       the CERP contract or suitable alternative equipment.

    2. Determine whether Walayatti medical clinic has been officially transferred to the Afghan MOPH and, if
       not, take immediate action to do so.
    3. Work with MOPH to take appropriate action to equip, staff, and sustain the medical clinic for the
       Walayatti village inhabitants.


AGENCY COMMENTS

USFOR-A provided written comments on a draft of this report, which are reproduced in appendix IV. USFOR-A
generally concurred with our recommendations and provided information on steps it has taken to implement
them.
Regarding our first recommendation, USFOR-A stated that during its October 22, 2013, site visit, it observed
two water heaters, but found only brackets and welded pipes where a third water heater should have been. As
such, it concluded that the third water heater was either installed and stolen or never fully installed. USFOR-A
did not mention any plans to have the third water heater installed. USFOR-A also stated that Afghan officials
and local community members told them the generator currently on site was sufficient to power the facility.
However, given the capacity difference between the 120-kilowatt generator called for in the design
specifications and the much smaller 24-kilowatt unit observed by SIGAR, we question the sufficiency of the
existing generator. We continue to recommend that USAFOR-A take steps to assist the Afghan government in
installing the required equipment for this facility.

In response to our second recommendation, USFOR-A provided a memorandum from the Kabul Province Public
Health Directorate, dated October 24, 2013, accepting handover of the Walayatti medical clinic. However, in a
July 2013 telephone conversation with an MOPH representative, we were told that acceptance by the Kabul
Province Public Health Directorate was insufficient for MOPH support of the facility, and that transfer must be
to the MOPH Policy and Planning (Property Directorate). The MOPH representative also told us the Walayatti
medical clinic had been built at the request of the local residents and was not included in the MOPH support
plan. Indeed, the October 24 memorandum indicates that the provincial health directorate continues to face
challenges getting support for the clinic from MOPH. Specifically, the memorandum states that “Since two
years we are requesting MOPH to higher [sic] new staff for [the Walayatti clinic] but we could not get any final
answer from them.” Therefore, we continue to recommend that USFOR-A determine whether the Walayatti
medical clinic has been officially transferred to the Afghan MOPH and, if not, take immediate action to do so.

Regarding our final recommendation, USFOR-A noted the interim agreement among MOPH, the Kabul Public
Health Department, local leadership, and the Ministry of Education to use the building as a library and
administrative facility until the MOPH can staff and equip it as a medical clinic. We commend these efforts to
find a temporary use for the facility. However, we continue to recommend that USFOR-A work with MOPH find a
way to equip, staff, and sustain the medical clinic for its intended use.




SIGAR 14-10-IP/Walayatti Medical Clinic                                                                    Page 5
USFOR-A and CENTCOM also provided technical comments on a draft of this report, which we incorporated into
the final report, as appropriate.




SIGAR 14-10-IP/Walayatti Medical Clinic                                                             Page 6
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the inspection results of a Commander’s Emergency Response Program (CERP) funded
contract (CERPCAP1D069AA) to construct a medical clinic in the village of Walayatti, located in the Bagrami
district, Kabul province. To determine whether construction had been completed in accordance with contract
requirements and applicable construction standards as well as whether the facilities were being used as
intended and sustained, we
    •   reviewed available contract documents to understand project requirements and contract
        administration;
    •   interviewed cognizant U.S. and Afghan government officials involved in the construction project; and
    •   conducted a physical inspection and photographed the project site to observe the current status and
        quality of construction.
During our inspection, we noted that project documentation in the Department of Defense’s Combined
Information Data Network Exchange (CIDNE) database was incomplete and did not comply with CERP
requirements. As a result, we were unable to fully assess whether construction of the facilities was conducted
in accordance with the terms and conditions of the contract and construction standards.
We conducted work in Kabul, Afghanistan, and at the Walayatti medical clinic in Kabul province from January
through September 2013, in accordance with the Quality Standards for Inspection and Evaluation, published
by the Council of the Inspectors General on Integrity and Efficiency. The engineering assessment was
conducted by professional engineers in accordance with the National Society of Professional Engineers’ Code
of Ethics for Engineers. We did not rely on computer-processed data in conducting this inspection. However, we
considered the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. We conducted this inspection under the authority of Public Law 110-181, as
amended; and the Inspector General Act of 1978, as amended.




SIGAR 14-10-IP/Walayatti Medical Clinic                                                                  Page 7
APPENDIX II - WALAYATTI MEDICAL CLINIC BUILDING PLAN

             Figure I - Main Clinic Building–Planned Layout and Actual Layout
              m~~--~-----~~~~~~~~~~~~~----~~---;                                                                                  ...---~~.---~r---~
                     WAmiiGROOI\1                                           EIITRY                                        ADMIN      TOILET                           HEALTH AIID
                                                                :········            ······:                                                                          r1ummor1
                                                         --"········y·:· · ·. . .!_                                                                                                         I
                                                                                                     REGISTRATION
                                               ·····'
                                       /.·· I                                                                                                           r··········. .

                                   · · · · :,
                                   L •..••··••·
                                                                                 PLANNED LAYOUT
                  STE~~I~TIOII         ············..,

              _ _ _. . ........                      :~
                                                      m.< -~:••• ·····~-:_,·_·.· _·...··..:/•. -.---~····· .:.:;•
                                                                                           ··........i                                                 .......··



                                                                                                                                              : ··.···-....~\
                                                                                                                                                  ..




                                                             EXAMIIIATIOII AIID
                     DELIVERY ROOM                             MOTHER CARE                                 VACCIIIATION           STORAGE                             PHARMACY
              ~ ..r---..--~~-.----..----~-~~--~--~....------~~r---~----~~


                     WAmiiGROOI\1                            EXAIIIIIIATIOII AIID                        REGISTRATI ON    ADMIN      TOILET                           HEALTH AIID
                                                               MOTHER CARE                                                                                            uummor1

                                                                                                                                                                                            I


                                                                                                                                              ~-·· · · · ·-. )-               ...~-1
                                                                                                                                                                                    l
                                      ............
                                                                                      ACTUAL LAYOUT                                                                       EIITRY    ~-...::::·/


              ._  STERILIZATIOII       ······•·····..,

                      .......... . . . .
                      ROOM
                                                     ~
                                                                                                         .:.:. .:
                                                                                                     ~-:· ...--.--~~ ::r
                                                                                                                                                                                    . .··:>~




                                                                                                                                              :        ·······....\
                                                                                                                                              :........... ,,;
                                                                   MAlII EIITRY

                                                            r···········...
                     DELIVERY ROOM                                                                         VACCIIIATION           STORAGE                             PHARMACY



             Note: Not to scale
             Source: SIGAR Analysis




SIGAR 14-10-IP/Walayatti Medical Clinic                                                                                                                                                           Page 8
Figure II - Latrine–Planned Layout and Actual       Figure III - Guard Room–Planned Layout and Actual Layout
Layout




Note: Not to scale
Source: SIGAR Analysis



                                                    Note: Not to scale
                                                    Source: SIGAR Analysis




          SIGAR 14-10-IP/Walayatti Medical Clinic                                                     Page 9
APPENDIX III - MEMORANDUM OF AGREEMENT




                                                 DEPARTMENT OF THE AR!\1Y
                                        HEADQUARTERS, 1• SQUADRON I 341M CAVALRY
                                                 TASK FORCE KABUL (FURY)
                                             CAMP PHOENIX, KABUL, AFGHANISTAN
                                                       APOAE09320


                                             MEMORANDUM OF AGREEMENT
                                                      BETWEEN
                                        Til F. COMMANDER. TASK FORCE KABUL
                                                              AND
                                     THF.. DIRECTOR MINISTRY OF PUBLIC HEAI.TII

               SUBJECT: Recurring Operation and Maintenance of the Walayatti Basic Health Clinic (BI IC)


               I. The purpose of this document is to memoriali7.e an agreement between the Commander, TF
               Kabul. and the Director of the Ministry of Public Health.

               2. By and through this agreemenL the Director of the Ministry of Public Health agrees to be
               responsible for the operation and maintenance of the Walayatti BHC to include staffing,
               supplies. and routine maintenance once construction has been completed and the building has
               been transferred to the GIRoA. The estimated recurring operations and maintenance costs for
               this facility arc $!800US/8!,000 Afghani per month.

               3. Nothing in this Memorandum of Agreement authorizes the commitment or obligation of
               appropriated funds of the United States of America prior to their availability, or in violation of
               any applicable statute. regulation or policy of the government of the United States of America.

               4. This document expresses the participants' intent to achic\'e the goals of this proj ect. The
               panicipants intend for this project to benefit the local community and its people for years to
               come. [t is not. however. a legal instrument that binds the participants under international law.
               Rather. it embodies the aspirations towards which the participants strive.

               5. After the construction and transfer ofauthority are complete. the United States Armed Forces
               will return periodically to check on the condition of the facility. [fthe facility is not in
               satisfactory condition. future CERP projects may be cancelled in this area.




               THOMAS G. RYNDERS                                             Dr. Sheer l'achar
               I.TC. AR                                                      Deputy Director of
               Commanding                                                    Ministry of Public Health




SIGAR 14-10-IP/Walayatti Medical Clinic                                                                             Page 10
APPENDIX IV - COMMENTS FROM UNITED STATES FORCES-AFGHANISTAN




                                                            H EADQUA t{Tf. RS
                                                UNIT ED ST ATES FORCES-A FG H AN I ST AN
                                                        KA BUL, A FGHAN I ST AN
                                                               A PO , A F: 09356



                   USFOR-1\ .19                                                                24 October 2013


                  MEMORANDUM FOR Special Inspector General for Afghanistan Reconstruction (SIGAR).
                  2530 Crystal Drive. Arl ington. Virgi nia 22202-3940

                  SUBJECT: SlGAR INSPECTION 14-X. WALl\ YATII MEDICAL CLIN IC: FACILITY WAS
                  NOT CONSTRUCTED TO DESIGN SI'ECU:ICATIONS AND HAS NEVER BEEN lJSF.D

                   I. Recommendation: Compare the ..as-built.. construction to the contract requirements and.
                   using a professional engineer. determine whether the facilities are structurall y sound.

                          a. Concur. The 226' 11 MEB and the 83'd CA BN personnel met with the Kabul Public
                             Health Department. local Maliks. i\linistry of Education representative. village elders.
                                                                                                                           See SIGAR
                             and Ministry of Public Health (MoP H) on 22 October 20 13. During this visit. the Air         comment 1.
                             Force Engineer present concluded that the Walayau i Medical Clinic was structurally
                             sound and ready for occupation ( sec enclosure I for furt her details on the Engineer· s
                             report of the health clinic).


                   2. Recommendation: Determine the rcason(s) lor missing equipment such as water heaters and
                   generators requ ired by the contract and take appropriate action to ha,·c it instalJcd.

                          a. Two water heaters and one generator were present in the clinic. We also took note of
                              the brackets and welded pipes where a third water heat.:r should have been. We can
                              only conclude that the third water heater was either installed and stolen. or never fully
                                                                                                                            See SIGAR
                              installed. The MOPH representative. local t.>lder. and the caretaker for the facility all     comment 2.
                              expressed thai the generator on site would be more than sufficient to accommodate
                              the needs or the health tacilit)'. TI1c Air Force Engineer also confirmed that the
                              generator that is on the premises was more than enough to power to the clinic.

                   .3. Recommendation: Ensure that project documentation related to this CER.P project complies
                   with CER.P guidance and is up loaded into the Combined Information Data Network Exchange
                   (ClONE) database.

                          a. TI1e project tiles were uploaded to ClONE in accordance wit h Money as a Weapon
                             System - Afghanistan (MAA WS-A). The SF 44's. SF 1034 's. and DO 1081 's are
                                                                                                                           See SIGAR
                             acc urate per the Statement of Work (SOW) payment schedule and are visible in                 comment 3.
                             ClONE.




SIGAR 14-10-IP/Walayatti Medical Clinic                                                                                   Page 11
                                            See SIGAR
                                            comment 4.




SIGAR 14-10-IP/Walayatti Medical Clinic   Page 12
SIGAR 14-10-IP/Walayatti Medical Clinic   Page 13
SIGAR 14-10-IP/Walayatti Medical Clinic   Page 14
                        SIGAR’S Response to Comments from U.S. Forces-Afghanistan


    1. Because USFOR-A implemented this recommendation, we deleted it from this final report.
    2. We continue to question the sufficiency of this generator, given the capacity difference between the
       120-kilowatt generator called for in the design specifications and the much smaller 24-kilowatt unit
       observed by SIGAR. Moreover, we note that USFOR-A’s site visit confirmed the absence of the third
       generator. As such, we maintain that this recommendation needs to be fully implemented.
    3. As noted earlier in this report, we have deleted this recommendation from the final report because the
       primary documents missing have now been uploaded into CIDNE.
    4. We revised this recommendation slightly in the final report to delete the phrase “determine whether
       to,” because it is clear from USFOR-A’s comments on the draft that it has recognized the value in
       working with MOPH to address the issues we found at Walayatti. However, the evidence provided by
       USFOR-A does not show that the clinic has been officially transferred to MOPH or that a plan is in place
       to equip, staff, and sustain the clinic for its intended purpose. As such, we maintain that this
       recommendation is needed.




SIGAR 14-10-IP/Walayatti Medical Clinic                                                                Page 15
APPENDIX V - ACKNOWLEDGMENTS

Crawford “Les” Thompson, Senior Inspections Manager
Milton Naumann, Auditor-in-Charge
Warren Anthony, Senior Auditor
Lise Pederson, Professional Engineer
Kim Maria Arellano, Investigative Analyst




SIGAR 14-10-IP/Walayatti Medical Clinic               Page 16
                                    This inspection report was conducted
                                      under project code SIGAR-I-005F.




SIGAR 14-10-IP/Walayatti Medical Clinic                                    Page 17
                                                The mission of the Special Inspector General for Afghanistan
             SIGAR’s Mission                    Reconstruction (SIGAR) is to enhance oversight of programs for the
                                                reconstruction of Afghanistan by conducting independent and
                                                objective audits, inspections, and investigations on the use of
                                                taxpayer dollars and related funds. SIGAR works to provide accurate
                                                and balanced information, evaluations, analysis, and
                                                recommendations to help the U.S. Congress, U.S. agencies, and
                                                other decision-makers to make informed oversight, policy, and
                                                funding decisions to:
                                                         •   improve effectiveness of the overall reconstruction
                                                             strategy and its component programs;
                                                         •   improve management and accountability over funds
                                                             administered by U.S. and Afghan agencies and their
                                                             contractors;
                                                         •   improve contracting and contract management
                                                             processes;
                                                         •   prevent fraud, waste, and abuse; and
                                                         •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR                     To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                                                site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies                      testimonies, and correspondence on its Web site.




                                                To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and                     fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan                      hotline:
   Reconstruction Programs                               •   Web: www.sigar.mil/fraud
                                                         •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                                         •   Phone Afghanistan: +93 (0) 700-10-7300
                                                         •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                                         •   Phone International: +1-866-329-8893
                                                         •   Phone DSN International: 312-664-0378
                                                         •   U.S. fax: +1-703-601-4065




                                                Public Affairs Officer
                 Public Affairs                          •   Phone: 703-545-5974
                                                         •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                                         •   Mail: SIGAR Public Affairs
                                                             2530 Crystal Drive
                                                             Arlington, VA 22202



      SIGAR 14-10-IP/Walayatti Medical Clinic                                                                 Page 18
